No. 20–6772

IN THE
SUPREME COURT OF THE UNITED STATES

CHRISTOPHER SPREITZ,
PETITIONER,
-vsDAVID SHINN,
RESPONDENT.

CERTIFICATE OF SERVICE
CAPITAL CASE
BRIEF IN OPPOSITION
MARK BRNOVICH
ATTORNEY GENERAL
BRUNN (“BEAU”) W. ROYSDEN III
SOLICITOR GENERAL
LACEY STOVER GARD
DEPUTY SOLICITOR GENERAL/CHIEF OF
CAPITAL LITIGATION
(COUNSEL OF RECORD)
CAPITAL LITIGATION SECTION
400 W. CONGRESS, S-215
TUCSON, ARIZONA 85701
LACEY.GARD@AZAG.GOV
CLDOCKET@AZAG.GOV
TELEPHONE: (520) 628-6520
ATTORNEYS FOR RESPONDENT

CERTIFICATE OF SERVICE
Lacey Stover Gard certifies that she is a member in good standing of the
United States Supreme Court Bar. That on February 4, 2021, she caused to be
electronically filed and deposited in a FedEx envelope, shipping prepaid, Original
and 10 copies of the BRIEF IN OPPOSITION in Christopher Spreitz v. David Shinn,
to:
THE HONORABLE SCOTT S. HARRIS
United States Supreme Court
Office of the Clerk
1 First Street, N.E.
Washington, D.C. 20543
and caused to be emailed and deposited in a United States Post Office, first-class
postage prepaid, 1 additional copy, addressed to:
Timothy M. Gabrielsen
Assistant Federal Public Defender
407 West Congress Street, Suite 501
Tucson, Arizona 85701
Tim_Gabrielsen@fd.org
All parties required to be served have been served.
/s/ Lacey Stover Gard
Lacey Stover Gard

2

